                             OFFICE OF
                      THE INSPECTOR GENERAL


                           U.S. NUCLEAR
                      REGULATORY COMMISSION




                             Use of E-Mail at NRC

                        OIG-03-A-11 March 21, 2003




                        AUDIT REPORT




All publicly available OIG reports (including this report) are accessible through
                               NRC’s website at:
             http://www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                                March 21, 2003



MEMORANDUM TO:                  William D. Travers
                                Executive Director for Operations



FROM:                           Stephen D. Dingbaum/RA/
                                Assistant Inspector General for Audits


SUBJECT:                        USE OF E-MAIL AT NRC (OIG-03-A-11)


Attached is the Office of the Inspector General’s audit report titled, Use of E-Mail at NRC.
This report reflects the results of our review to assess (1) the adequacy of NRC’s process in place
for ensuring that appropriate e-mail records become official agency records, (2) the adequacy of
NRC’s policies and procedures covering the use of its e-mail system, and (3) whether employee
and contractor usage of the e-mail system is consistent with agency policy.

Audit Results:

‚NRC has not implemented adequate controls for ensuring that appropriate e-mail records
become official agency records. Specifically, the agency has not; updated agency guidance for
identifying official records, finalized other documents that will provide valuable information to staff,
or provided adequate training on these subjects.

‚NRC’s policies and procedures for the personal use of e-mail are effective. NRC contractors,
however, must adhere to a more stringent personal use of e-mail policy and procedures have not
been put into place to ensure contractors follow this policy.

‚NRC employees generally use the e-mail system for official business, or limited personal use in
accordance with agency policy. In contrast, NRC contractors do not follow the government-
furnished information technology equipment usage policy, which prohibits their personal use of
NRC’s e-mail system. In addition, contracting and project officers neglected to include required
clauses concerning contractor personal use of information technology equipment in NRC
contracts.

At an exit conference held on March 5, 2003, NRC officials generally agreed with the report’s
findings and recommendations. The comments provided at the meeting have been incorporated
into the report where appropriate.

If you have any questions, please contact Beth Serepca, at 415-5911 or me at 415-5915.

Attachment: As stated

cc:     J. Craig, OEDO
R. McOsker, OCM/RAM
B. Torres, ACMUI
G. Hornberger, ACNW
G. Apostolakis, ACRS
J. Larkins, ACRS/ACNW
P. Bollwerk III, ASLBP
K. Cyr, OGC
J. Cordes, OCAA
S. Reiter, CIO
J. Funches, CFO
P. Rabideau, Deputy CFO
J. Dunn Lee, OIP
D. Rathbun, OCA
W. Beecher, OPA
A. Vietti-Cook, SECY
W. Kane, DEDR/OEDO
C. Paperiello, DEDMRS/OEDO
P. Norry, DEDM/OEDO
M. Springer, ADM
R. Borchardt, NRR
G. Caputo, OI
P. Bird, HR
C. Kelley, Acting SBCR
M. Virgilio, NMSS
S. Collins, NRR
A. Thadani, RES
P. Lohaus, STP
F. Congel, OE
M. Federline, NMSS
R. Zimmerman, NSIR
R. Wessman, IRO
H. Miller, RI
L. Reyes, RII
J. Dyer, RIII
E. Merschoff, RIV
OPA-RI
OPA-RII
OPA-RIII
OPA-RIV
                                                                               Use of E-Mail at NRC


EXECUTIVE SUMMARY

    BACKGROUND

           Electronic mail (e-mail) is the term used to describe the process or result of
           sending and receiving messages via telecommunication links between computer
           terminals. E-mail has in many instances replaced the telephone and paper
           correspondence as the primary and preferred method of business communication
           because it is convenient, faster and inexpensive to use. While
           e-mail provides benefits for businesses, it also has risk. For example, important e-
           mail correspondence is not always preserved, thereby causing records
           management problems. Inappropriate employee use is another risk when
           employees access an organization’s e-mail system for personal use.

    PURPOSE

           The objectives of this audit were to assess whether:

                  1.      NRC has an adequate process for ensuring that appropriate items
                          of e-mail correspondence become official agency records;
                  2.      NRC has adequate policies and procedures covering the use of its
                          e-mail system; and
                  3.      NRC employee and contractor use of the e-mail system is
                          consistent with agency policy.

    RESULTS IN BRIEF

           NRC has not implemented adequate controls for ensuring that appropriate e-mail
           records become official agency records. Furthermore, while NRC employees
           generally use the e-mail system for official business, or limited personal use in
           accordance with agency policy, contractors do not follow the more stringent
           e-mail usage policy applicable to them.

           A. E-Mail As Official Agency Records

           NRC management has not updated agency guidance for identifying official records
           and has not finalized other documents that will provide valuable information to staff.
           Furthermore, NRC has not provided adequate training to staff on these subjects.
           As a result, offices approach records management inconsistently and may be
           failing to capture all relevant record material. Non-compliance with Federal record
           archiving requirements could cost NRC millions of dollars to recover e-mail records
           that have not been effectively preserved.




                                             i
                                                                                                   Use of E-Mail at NRC

                  B. Personal Use of NRC’s E-Mail System

                  NRC’s policies and procedures covering personal use of the e-mail system are
                  generally effective for employees. Approximately 82 percent of the 2,718 items of
                  e-mail correspondence reviewed during this audit was for official business.
                  Approximately 18 percent of the e-mail correspondence was of a personal nature,
                  but did not violate minimal-use limits prescribed by NRC policy. None of the 2,718
                  items of e-mail correspondence reviewed for this audit contained inappropriate or
                  prohibited material.1

                  In contrast, NRC contractors do not follow the policies applicable to them.
                  Contractors mistakenly believe that the employee minimal-use policy applies to
                  them rather than the more stringent, but less publicized, contractor-use policy,
                  which prohibits their use. In addition, contracting and project officers neglected to
                  include required clauses concerning contractor personal use of information
                  technology equipment in NRC contracts. As a result, contractors are not in
                  compliance with NRC policy, which was written to avoid recurrences of instances
                  of inappropriate use of government-furnished information technology equipment by
                  contractors.

         RECOMMENDATIONS

                  The consolidated list of recommendations made to the Executive Director of
                  Operations is on page 13.




         1
          While no inappropriate or prohibited material, such as pornography or gambling, was found in the audit
sample, isolated instances could exist.

                                                           ii
                                                                  Use of E-Mail at NRC


ABBREVIATIONS AND ACRONYMS

    ADAMS     Agencywide Documents Access and Management System
    e-mail    electronic mail
    IT        information technology
    MD 2.7    Management Directive and Handbook 2.7
    MD 3.53   Management Directive and Handbook 3.53
    NARA      National Archives and Records Administration
    NRC       U.S. Nuclear Regulatory Commission
    OCIO      Office of the Chief Information Officer
    OIG       Office of the Inspector General




                                        iii
                                   Use of E-Mail at NRC




[Page intentionally left blank.]




              iv
                                                                                                             Use of E-Mail at NRC


TABLE OF CONTENTS

    EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
    ABBREVIATIONS AND ACRONYMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii
    I.       BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
    II.      PURPOSE. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
    III.     FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
             A.         E-MAIL AS OFFICIAL AGENCY RECORDS . . . . . . . . . . . . . . . . . . . . . . . . 2
             B.         PERSONAL USE OF NRC’S E-MAIL SYSTEM . . . . . . . . . . . . . . . . . . . . . 5
    IV.      CONSOLIDATED LIST OF RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . 9
    V.       AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


    APPENDIX
    A.       SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
                                   Use of E-Mail at NRC




[Page intentionally left blank.]




              vi
                                                                            Use of E-Mail at NRC


I.    BACKGROUND

         Electronic mail (e-mail) is the term used to describe the process or result of
         sending and receiving messages via telecommunications links between computer
         terminals. E-mail has in many instances replaced the telephone and paper
         correspondence as the primary and preferred method of business communication
         because it is convenient, faster and inexpensive to use. While
         e-mail provides benefits for businesses, it also has risk. For example, important e-
         mail correspondence is not always preserved, thereby causing records
         management problems. Inappropriate employee use is another risk when
         employees have been given permission to access an organization’s
         e-mail system for personal use.

         Official Records

         In the Federal Government, e-mail exchanges that lead to official action are part of
         agencies’ official records and such correspondence must be preserved so that
         interested parties can follow the decisionmaking process and ascertain the intent
         behind decisions. Federal agencies are required to comply with regulations
         governing records management issued by the National Archives and Records
         Administration (NARA). The NARA regulations require adequate and proper
         documentation of the organization, functions, policies, decisions, procedures, and
         essential transactions of the agency.

         Personal Use of E-Mail

         NRC’s policy governing employee personal use of e-mail, stated in Management
         Directive and Handbook 2.7 (MD 2.7), Personal Use of Information Technology,
         defines acceptable conditions for NRC employees’ personal use of information
         technology (IT). This policy is based on the model recommended by the Federal
         Chief Information Officers Council, an interagency forum established by Executive
         Order to improve agency practices for managing information technology. The
         Federal Chief Information Officers Council model recommends that Federal
         employees be permitted limited use of information technology, including e-mail, if
         the use does not interfere with official business and involves minimal additional
         expense to the Government.


II.   PURPOSE

         The objectives of this audit were to assess whether:

                1.      NRC has an adequate process for ensuring that appropriate items
                        of e-mail correspondence become official agency records;
                2.      NRC has adequate policies and procedures covering the use of its
                        e-mail system; and
                3.      NRC employee and contractor use of the e-mail system is
                        consistent with agency policy.

                                           1
                                                                              Use of E-Mail at NRC


III.   FINDINGS

            NRC needs to improve its controls for ensuring that appropriate items of e-mail
            correspondence become official agency records. Furthermore, while NRC
            employees generally use the e-mail system for official business or limited personal
            use in accordance with agency policy, contractors do not follow the more stringent
            e-mail usage policy, which prohibits their use. Specifics on these matters are
            described in the following sections.


       A. E-MAIL AS OFFICIAL AGENCY RECORDS

            NRC has not implemented adequate controls to ensure that appropriate items of e-
            mail correspondence become official agency records. NRC has not updated
            agency guidance for identifying official records and has not finalized other
            documents that will provide valuable information to staff. Furthermore, the agency
            has not provided adequate training to staff on these subjects. As a result, offices
            approach records management inconsistently and may be failing to capture all
            relevant record material. Non-compliance with Federal record archiving
            requirements could cost NRC millions of dollars to recover e-mail records that have
            not been effectively preserved.

            Policy on Official Agency Records

            Management Directive and Handbook 3.53 (MD 3.53), NRC Records Management
            Program, specifies NRC’s policy, objectives, and organizational responsibilities
            and delegations of authority pertaining to records management. MD 3.53
            specifies that:

            ‚      The Office of the Chief Information Officer (OCIO) is responsible for
                   developing and maintaining procedures for the organization, maintenance,
                   use, and disposition of all NRC official records;

            ‚      NRC offices must have a designated Records Liaison Officer who
                   administers records management policies, procedures, and programs to
                   ensure that NRC’s file maintenance system is being implemented within
                   their offices; and

             ‚     NRC employees and contractors must preserve the official records that
                   they create, receive, or access in accordance with MD 3.53.

            The criteria for determining which e-mail correspondence should be maintained as
            official agency records are the same that applies for every other type of media.
            Electronic record material includes e-mail correspondence concerning agency
            business — its functions, policies, decisions, procedures, and operations — or
            other activities of the Government. Furthermore, e-mail record material could
            include correspondence pertaining to policy, rationale for a decision, sense of
            direction, or guidance above and beyond that documented in the official files. An

                                             3
                                                                                                 Use of E-Mail at NRC

                  e-mail from one NRC manager to another approving funding for a program
                  represents an example of correspondence that should be saved as a record. In
                  contrast, non-record material includes extra copies of documents kept for
                  convenience of reference and informal e-mail messages from an individual to other
                  individuals in the agency that do not relate to agency business.

                  Agency Guidance

                  MD 3.53 is incomplete because it fails to describe NRC’s current methods for
                  preserving e-mail records in the Agencywide Documents Access and Management
                  System (ADAMS). ADAMS became an official recordkeeping system on April 1,
                  2000. Last revised in June 1995, MD 3.53 lacks any reference to the role of
                  ADAMS. According to the ADAMS Desk Reference Guide, employees are to
                  identify which e-mails constitute official agency records and then follow the
                  necessary steps to place the e-mails into ADAMS. The ADAMS Desk Reference
                  Guide states that the e-mail message, its transmission and receipt data, and any
                  attachments to the message are to be preserved. Yet, MD 3.53 contains no
                  information about e-mail procedures specifically relevant to ADAMS.

                  Draft Guidance

                  While MD 3.53 holds OCIO responsible for developing and maintaining procedures
                  for managing official records, the office has yet to finalize guidance it drafted and
                  circulated for review. This comprehensive guidance is contained in a collection of
                  documents2 that describe office responsibilities and quality assurance procedures
                  for ensuring that offices maintain complete record collections. On May 22, 2002,
                  OCIO distributed these documents to NRC headquarters management officials,
                  whose offices are responsible for the largest record collections that reside in
                  ADAMS, and requested their feedback. On
                  June 6, 2002, OCIO distributed these documents to NRC regional office
                  management officials and also requested their feedback. While OCIO received
                  and incorporated feedback, OCIO has not finalized this package or issued it to all
                  offices as planned.

                  Records Management Web Site

                  OCIO has developed, but not fully deployed, an extensive records management
                  Web site to assist staff in identifying official agency records. NRC’s records
                  management Web site will describe employee responsibilities for official records
                  and include links to other sources of related guidance, including key NRC
                  management directives and NARA’s database. Although access to the Web site
                  was provided to one NRC office during a special training session requested by that
                  office, the link is not yet available on NRC’s internal home page for agencywide
                  use.

         2
          Titles include, NRC Office Responsibilities for Ensuring the Integrity of Agency Record Collections; Records
Management Guideline No. 02-02, Responsibilities of Records Liaison Officers in the ADAMS Environment; Records
Liaison Officers; and Sample Searches for Monitoring ADAMS Document Input Based On Organizational Structure and
Document Type.

                                                          4
                                                                   Use of E-Mail at NRC


Records Management Training

NRC does not provide adequate training for records management to the agency
staff. NRC employees have expressed concern that staff need clearer direction
and training to better determine which items of e-mail correspondence need to be
saved as official agency records. For example, Records Liaison Officers advised
that employees have varying levels of understanding about which e-mails should
be saved. In addition, Records Liaison Officers, who are required by MD 3.53 to
administer records management procedures, have received only limited training on
the subject.

E-Mail Purge

Although the NRC Network Operations Center performs an agency e-mail purge
every 180 days and notifies system users in advance of this procedure, the agency
has not taken these opportunities to clearly communicate specific information on
the preservation of record e-mails. While the e-mail purge notification reminds
employees of their requirement to meet NARA and NRC regulations, it fails to
specifically indicate:

‚      where to review NRC policy and procedures identifying which records
       should be preserved as official agency records,
‚      how to archive documents,
‚      where to review NARA requirements, and
‚      how to save e-mail as official agency records.

Specific guidance on how to fulfill these requirements is located in MD 3.53, the
Groupwise training manual, and the ADAMS Desk Reference Guide.

Management Priorities

OCIO management and staff explained that a primary reason for failing to finalize
draft documents or clarify guidance identifying records management control
activities is because these projects have not been office priorities. According to an
OCIO manager and staff, limited resources restrict their ability to complete the
revisions to MD 3.53, correct Web site links, and offer training.

E-Mail Recovery Costs

Non-compliance with Federal record archiving requirements could cost NRC
millions of dollars to recover e-mail records that have not been effectively
preserved. An inconsistent approach to records management may cause a failure
to capture all relevant record material. GAO Report, Clinton Administration’s
Management of Executive Office of the President’s E-Mail System, GAO-01-446,
April 2001, found that the Executive Office of the President did not implement
adequate records management controls to ensure that all e-mail records generated




                                  5
                                                                                                   Use of E-Mail at NRC

                  or received were preserved in accordance with applicable law and best practices.
                  Several factors including, records management practices and miscommunication,
                  contributed to the expected cost to restore omitted e-mail records, estimated to be
                  $11.7 million.

                  Summary

                  NRC has not implemented adequate controls for records management.
                  Management attention to the completion of tasks currently underway will help
                  ensure that appropriate e-mail records become official agency records and could
                  help NRC avoid incurring substantial costs that may result if the agency has to re-
                  create official agency records.

         RECOMMENDATIONS:

                  OIG recommends that the Executive Director for Operations:

                  1.       Revise Management Directive and Handbook 3.53, NRC Records
                           Management Program, to include current information about ADAMS.

                  2.       Finalize and implement the guidance identifying office responsibilities for
                           records management.

                  3.       Finalize the records management Web site.

                  4.       Develop and require records management training for Records Liaison
                           Officers.

                  5.       Develop and offer records management training for NRC staff.

                  6.       Revise the network announcement regarding the e-mail purge to include
                           links to records management guidance.


         B. PERSONAL USE OF NRC’S E-MAIL SYSTEM

                  NRC’s policies and procedures covering personal use of e-mail are generally
                  effective for employees. Approximately 82 percent of the 2,718 items of e-mail
                  correspondence reviewed during this audit was for official business. Approximately
                  18 percent of the e-mail correspondence was of a personal nature, but was within
                  the minimal-use limits prescribed by NRC policy. None of the 2,718 items of e-mail
                  correspondence reviewed contained inappropriate or prohibited material.3




         3
          While no inappropriate or prohibited material, such as pornography or gambling, was found in the audit
sample, isolated instances could exist.

                                                           6
                                                                     Use of E-Mail at NRC

In contrast, NRC contractors do not follow the policies applicable to them.
Contractors mistakenly believe that the employee minimal-use policy applies to
them rather than the more stringent, but less publicized, contractor-use policy,
which prohibits their use. In addition, contract and project officers neglected to
include required clauses concerning contractor personal use of IT equipment in
NRC contracts. As a result, contractors are not in compliance with NRC policy,
which was written to avoid recurrences of instances of inappropriate use of
government-furnished IT equipment by contractors.

NRC Policy

MD 2.7, Personal Use of Information Technology, defines acceptable conditions
for NRC employees’ personal use of IT, including e-mail. The policy and guidance
in MD 2.7 do not apply to NRC contractors. Personal use of e-mail by NRC
employees is permitted when such use:

‚      involves minimal or no additional expense to the Government,
‚      is performed during employee non-work time,
‚      does not interfere with NRC’s mission or operation,
‚      does not violate Federal Government Standards of Ethical Conduct, and
‚      is not prohibited by law.

MD 2.7 also affirms that personal use of agency IT is a privilege, not a right.
Employees should not have the expectation of privacy while using agency IT
systems. By using such systems, employees imply their consent to disclosing the
contents of any files or information maintained in the systems. NRC’s policy for the
automated information systems security program requires that managers inform
system users that their activities on the system are subject to monitoring. NRC
computer systems are configured to display a warning banner to users upon first
accessing NRC automated information resources. By clicking “ok” to clear the
warning banner that appears upon login, users give consent to the monitoring of
their activities and acknowledge awareness that violation of security regulations or
unauthorized uses of NRC computer systems is subject to criminal prosecution
and/or disciplinary action. In addition, NRC employees are required to take an
online computer security awareness course that contains a module on personal
use of Government equipment.

To prevent contractor abuse of IT equipment, NRC issued a new procurement
instruction, which clarifies specific contractor responsibilities when utilizing NRC-
furnished IT equipment, services, or access. DCPM Instruction 02-01, issued
March 4, 2002, specifically prohibits personal use of e-mail by contractors. The
policy was written to reinforce the fact that MD 2.7 does not apply to NRC
contractors. DCPM Instruction 02-01 states that the contractor must be held
responsible for monitoring its employees, consultants, and subcontractors to
ensure that NRC-furnished IT equipment and/or IT access are not used for
personal use, misused, or used without proper authorization. To implement this
policy, NRC’s Division of Contracts requires inclusion of the clause entitled,




                                   7
                                                                                              Use of E-Mail at NRC

                 “Appropriate Use of Government Furnished Information Technology (IT) Equipment
                 and/or IT Services /Access (March 2002),” in all solicitations/contracts or delivery
                 orders that allow contractor staff access to NRC IT equipment and services.

                 E-Mail Activity at NRC

                 OIG reviewed approximately 3,000 e-mail messages sent by 183 system users
                 over a 3-day period4 in October 2002 and found that none of the messages
                 contained inappropriate content (e.g., sexually explicit materials or materials
                 related to gambling, illegal weapons, terrorist activities, or “for-profit” business
                 activity). Of the e-mail messages sent, approximately 82 percent was related to
                 NRC business. The remaining 18 percent of the e-mail correspondence was
                 personal messages. All employee personal e-mail messages were in accordance
                 with NRC policy. In addition, OCIO management stated that the agency set a limit
                 on the file size of e-mail and attachments to prevent situations where large files can
                 degrade network performance.

                 Personal Use of E-Mail

                 While personal use of the e-mail system was minimal and legal, both contractors
                 and NRC staff did not always follow the agency policy and procedures contained in
                 DCPM Instruction 02-01, which prohibits personal use of e-mail by contractors. In
                 a judgmental sample of eight contractors with e-mail accounts, all used the
                 e-mail system for personal use. In addition, 4 of 10 contracts that were executed
                 after March 2002, and required the clause prohibiting contractor employees
                 personal use of e-mail, did not contain the required clause.

                 Based on discussions with contractor employees, OIG concluded that contractors
                 used the e-mail system for personal use because they were unaware that such use
                 was prohibited. The contractor employees were familiar with NRC policy allowing
                 limited employee personal use of the NRC e-mail system. The contractors were
                 aware of MD 2.7 from a recent agencywide network announcement and presumed
                 that the personal use policy pertained to them.

                 In addition, staff did not ensure that required language specific to contractor use of
                 IT equipment or services appears in NRC contracts. For example, project officers
                 did not ensure that the required clause restricting contractor staff access to NRC IT
                 equipment/services was included in the statements of work for such contracts.
                 Contract officers also neglected to place the “Appropriate Use of Government
                 Furnished Information Technology (IT) Equipment and/or IT Services /Access”
                 clause in several bid solicitations and/or contracts.




        4
          As context, during a 1-week period in October 2002, which contained the 3 days sampled, NRC employees
sent 48,243 and received 114,294 e-mail messages.

                                                        8
                                                                 Use of E-Mail at NRC

Personal use of the e-mail system by contractor employees is inconsistent with
agency policies. Despite specific language in MD 2.7 that excludes contractors
from the employee personal use policy and in DCPM Instruction 02-01 that
prohibits contractor personal use of the e-mail system, contractors use the e-mail
system for personal use. Furthermore, because staff has not fully implemented
office procurement policy and procedures, contractor employees are non-compliant
with NRC policy.

Summary

NRC policies for personal use of e-mail are generally effective for employees,
however, contractors do not follow the NRC policy prohibiting contractor personal
use of NRC’s e-mail system. Because staff did not ensure that required language
specific to contractor use of IT equipment or services appears in NRC contracts,
NRC has not fully implemented the measures written to prevent such use.

RECOMMENDATIONS:

OIG recommends that the Executive Director for Operations:

7.     Develop a procedure that will implement the policy prohibiting contractor
       personal use of NRC-furnished information technology equipment.

8.     Modify the contracts requiring NRC-furnished information technology
       equipment with the needed clause that prohibits contractor use of such
       equipment.




                                 9
                                                                             Use of E-Mail at NRC

IV.   CONSOLIDATED LIST OF RECOMMENDATIONS

          OIG recommends that the Executive Director for Operations:

          1.     Revise Management Directive and Handbook 3.53, NRC Records
                 Management Program, to include current information about ADAMS.

          2.     Finalize and implement the guidance identifying office responsibilities for
                 records management.

          3.     Finalize the records management Web site.

          4.     Develop and require records management training for Records Liaison
                 Officers.

          5.     Develop and offer records management training for NRC staff.

          6.     Revise the network announcement regarding the e-mail purge to include
                 links to records management guidance.

          7.     Develop a procedure that will implement the policy prohibiting contractor
                 personal use of NRC-furnished information technology equipment.

          8.     Modify the contracts requiring NRC-furnished information technology
                 equipment with the needed clause that prohibits contractor use of such
                 equipment.




                                           10
                                                                         Use of E-Mail at NRC

V.   AGENCY COMMENTS

        At an exit conference held on March 5, 2002, NRC officials generally agreed with
        the report’s findings and recommendations. While agency officials chose not to
        provide a formal written response for inclusion in the report, they did provide
        editorial suggestions, which have been incorporated where appropriate.




                                        11
                                                                      Use of E-Mail at NRC
                                                                               Appendix A

SCOPE AND METHODOLOGY

        OIG reviewed the employee and contractor use of e-mail at NRC. To accomplish
        the audit objectives, OIG reviewed NRC Management Directives, office guidance,
        OIG reports, and outside agency documents. Auditors interviewed NRC contractor
        employees to determine their understanding of the personal use policy; Records
        Liaison Officers to gain insight on records management policies; NRC managers;
        and other staff. OIG performed an analysis of approximately 3,000 e-mail
        messages that NRC employees and contractors sent during a 3-day period in
        October 2002 to determine whether the messages were within established
        guidelines.

        This work was conducted from September 2002 through December 2002 in
        accordance with generally accepted Government auditing standards and included
        a review of management controls related to the objectives of the audit.

        The major contributors to this report were Beth Serepca, Acting Team Leader;
        Vicki Foster, Management Analyst; and Rebecca Underhill, Management Analyst.




                                      12
